OIG Investigative Reports Press Release, Philadelphia PA, 08/05/2014 - Philadelphia Businessman Indicted On Fraud And Tax Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of PENNSYLVANIA
NEWS
Philadelphia Businessman Indicted On Fraud And Tax Charges
FOR IMMMEDIATE RELEASE
August 5, 2014
PHILADELPHIA – An indictment was unsealed today charging Chaka Fattah, Jr., 31, of Philadelphia, in a scheme to defraud banks and the Internal Revenue Service of hundreds of thousands of dollars.  The indictment charges that between 2005 and 2012, Fattah, Jr.: made false statements to banks to obtain loans; made false statements to banks and the Small Business Administration to settle loans for less than what was owed; filed false federal income tax returns; failed to pay federal taxes; and stole from the Philadelphia School District, which had received federal funds for its operations.
The charges were announced by United States Attorney Zane David Memeger, FBI Special Agent-in-Charge Edward Hanko, and IRS Special Agent-in-Charge Akeia Connor.
According to the indictment, Fattah, Jr., obtained numerous business lines of credit from banks through false and fraudulent statements to local banks and used the funds primarily for personal expenses - including car payments, gambling debts, restaurant and club expenses, utilities, clothing, electronics, retail purchases, charitable donations, jewelry, legal fees, and personal credit card expenses - rather than business expenses, as the loan terms required.  The indictment alleges that these false statements involved fictitious earnings information that Fattah, Jr., supplied for entrepreneurial companies which Fattah claimed he operated, including 259 Strategies, LLC (“259 Strategies”) and Chaka Fattah, Jr. & Associates.  Fattah, Jr., claimed that 259 Strategies provided educational consulting, diversity consulting & audit services, technical assistance, and community relations, and organizational development services to a select group of clients. He claimed that Chaka Fattah, Jr. & Associates performed research and consulting concerning the development of computer centers.
According to the indictment, Fattah, Jr., received a loan from United Bank in 2011 for $50,000 intended for "working capital to support business operations."  Instead, it is alleged that he used the funds to make car payments, to pay down over $15,000 in personal credit card debt, and to pay in excess of $33,000 in gambling debts at area casinos.  The charges total approximately $206,000 in bank loans received through false misrepresentations or fraud.
The indictment also alleges that Fattah, Jr., defaulted on several lines of credit and provided false information to two banks, to the United States Small Business Administration, which had insured the bank loans, and to a Small Business Administration investigator, to attempt to settle the debts for less than what was owed.   The indictment charges that Fattah, Jr., falsely claimed that 259 Strategies was out of business at the time he was attempting to settle his debts in 2010, and that he was earning only $2,500 per month.  The indictment charges that, in fact, during 2010, Fattah, Jr.’s 259 Strategies was intact and, through this company, he was earning between $6,250 per month and approximately $37,500 per month.
Fattah, Jr.’s, is also charged with theft from a program receiving federal funds, that is, stealing funds supplied by the federal government to the Philadelphia School District.  The indictment alleges that, at times, Fattah, Jr.’s, was the Chief Operating Officer of a Philadelphia company which provided educational services to "at risk" and other students through contracts with the school district.  The indictment charges that Fattah, Jr.’s, provided false expense information and inflated salary figures for teachers and administrative staff on budgets submitted to the school district, which made payments consistent with the budgets provided.  Thus, the charges allege, Fattah concealed the theft of the funds from the school district.
Finally, the indictment charges that Fattah, Jr.’s, filed false federal income tax returns for tax years 2005, 2006, 2008, 2009, and failed to timely pay federal income tax of approximately $51,141 on reported income in excess of $150,000 during 2010.
If convicted of all charges, Fattah, Jr., faces a substantial term of imprisonment, restitution to the IRS, a fine of up to $13,000,025, a special assessment of $2,300, and up to five years of supervised release.
The case was investigated by the FBI, IRS Criminal Investigation, and the U.S. Department of Education, with the cooperation of the Philadelphia School District’s Office of Inspector General.   It is being prosecuted by Assistant United States Attorney Paul L. Gray.
An Indictment or an Information is an accusation.  A defendant is presumed innocent unless and until proven guilty.
UNITED STATES ATTORNEY'S OFFICE, EASTERN DISTRICTof PENNSYLVANIA
Suite 1250, 615 Chestnut Street, Philadelphia, PA 19106
PATTY HARTMAN, Media Contact, 215-861-8525
Top
Printable view
Last Modified: 08/13/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov